SEC.gov |  Payroll System
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Payroll System
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document. The printed
document may contain agency comments, charts, photographs, appendices,
footnotes and page numbers which may not be reproduced in this electronic
version. If you require a printed version of this document contact the
United States Securities and Exchange Commission, Office of Inspector General,
Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C. 20549 or call (202)
942-4460.
PAYROLL SYSTEM
Audit Report No. 263March 30, 1998
EXECUTIVE SUMMARY
We performed an audit of the Commission's
payroll system between January and November 1997. We found that most management
controls were generally effective and operations were conducted efficiently.
Our recommended improvements are summarized below and described in the
Audit Results section.
The Comptroller's Office should
consider eliminating a manual spreadsheet which duplicates automated payroll
data; ensure that all employees have state taxes withheld; make one employee
responsible for garnishments; remind supervisors to review the final payroll
report before the payroll is processed; and notify all employees of the
cut-off date for processing payroll changes.
The Office of Administrative and
Personnel Management should establish a checklist for new employees' withholding
options, and ensure that employees are converted to the GS pay plan when
appropriate.
SCOPE AND
OBJECTIVES
Our objective was to determine if
the payroll system was efficient and effective, and in compliance with
General Accounting Office (GAO) guidance and Commission policies and procedures.
During the review, we interviewed payroll staff in the Office of the Comptroller,
Office of Administrative and Personnel Management, and the Central and
Pacific Regional Offices. We reviewed selected payroll documentation and
performed limited tests of management controls.
Our review was performed between January
and November 1997 in accordance with generally accepted government auditing
standards.
BACKGROUND
The Commission's payroll system,
known as the Pay, Time and Leave (PTL) system, receives information from
several sources. The Office of Administrative and Personnel Management
(OAPM), through its Personnel Resource System (PRS), provides information
on new employees' salaries and withholdings, and changes to current employees'
salaries and withholdings (for example, as a result of promotions, or open
seasons in the Thrift Savings Plan and the Health Benefits Plan). Employees
submit changes to their tax withholdings directly to the Office of the
Comptroller, while time and attendance data is submitted by timekeepers
through the Enhanced Time and Attendance (ETA) system. Information on garnishments
of employee salaries is provided by the Office of the General Counsel.
The Office of the Comptroller has overall
responsibility for the accuracy and timeliness of payroll data and payments.
A Pay and Leave Section within that office has day to day responsibility
for the payroll. Automated payroll processing and related hardware and
software are the responsibility of the Office of Information Technology.
To save money and simplify administration,
the Commission has decided to out-source payroll processing to another
agency, the Department of the Interior. Out-sourcing is tentatively scheduled
for May, 1999.
AUDIT RESULTS
We found that the payroll system
was generally efficient and effective, and in compliance with GAO and Commission
guidance. Payroll data and payments were generally timely and accurate,
and supported by appropriate documentation. We are recommending certain
enhancements, as discussed below.
Payroll Reconciliation
Besides the PTL system (based on the
mainframe), the Comptroller's Office maintains a PC-based spreadsheet.
When employee payroll records are updated, payroll technicians enter the
data in PTL and the spreadsheet. They then reconcile the two records. The
purpose of this process is to identify errors and prevent fraud by OIT
staff (who do not have access to the spreadsheet).
While the spreadsheet acts as a management
control, its maintenance is time-consuming, and involves duplicate data
entry. During the reconciliation, the payroll technicians spend some of
their time correcting errors in the spreadsheet, which does not improve
the accuracy of PTL. The cost of the spreadsheet may exceed its benefits,
or cheaper controls could be as effective.
Recommendation A
The Comptroller's Office should consider
whether the payroll spreadsheet is necessary and cost effective. If not,
alternative controls should be implemented.
STATE TAX WITHHOLDING
We obtained a computer print-out of
the state tax withholding codes for all Commission employees. Fifteen employees
did not have an associated state code, apparently because these employees
had not filed the required withholding form.
Recommendation B
The Comptroller's Office should require
the fifteen employees we identified to file state tax withholding forms.
Recommendation C
The Comptroller's Office should implement
a control to ensure that new employees timely file a state tax withholding
form.
SUPERVISORY REVIEW
Supervisors are required to review
and sign the final time and attendance (T&A) data entered by timekeepers.
This review helps ensure that the data are accurate, and supported by appropriate
documentation (for example, leave request forms).
We recently reviewed T&A documentation
in two regional offices (Audit Nos. 264 and 266). We found seven cases
where the supervisor reviewed the T&A data after the date of final
payroll processing. In these cases, any errors identified by the review
could not be timely corrected, and a subsequent period adjustment would
be necessary.
Recommendation D
The Comptroller's Office should require
supervisors to review the final T&A data before the data are submitted
for processing.
GM Pay Calculations
Under the former PMRS incentive pay
plan, the salaries of some GM employees were between steps on the GS pay
scale. Once the PMRS was discontinued, salary increases (except promotions)
for these employees had to be calculated manually by the Office of Personnel
and Administrative Management, rather than automatically by the PTL system.
GM employees revert to GS status whenever promoted, according to the Office
of Personnel Management.
We reviewed a judgment sample of 19
GM employees for promotions after the PMRS was discontinued. We found one
instance of a GM employee who was promoted, but not changed to GS status
as required.
Recommendation E
The Office of Administrative and Personnel
Management should establish a procedure to ensure that GM employees are
changed to the GS pay plan when they are promoted.
Recommendation F
The Office of Administrative and Personnel
Management should review all GM employees to determine whether any should
be changed to GS status.
Commissioner Pay
The salaries of Commissioners are paid
semi-monthly (because they are defined as a semi-monthly amount), and their
pay is calculated manually. To save administrative time and expense, another
federal agency pays its Commissioners every two weeks through its automated
system, then makes an adjustment every quarter (based on the amount of
three monthly payments).
Recommendation G
If the Commissioners have no objection,
the Office of the Comptroller should pay them bi-weekly through PTL, and
make a manual adjustment every quarter.
Garnishments
According to the Comptroller's Office,
it processes about 40 salary garnishments each pay period, related to debt
and tax collection, delinquent child support payments, and other court
ordered levies. Currently, garnishments are handled by all technicians
in the Payroll Section.
Garnishments can be fairly complex,
since each state has different procedures. Also, they involve sensitive
information, and require coordination with the Office of the General Counsel,
which receives the writ of garnishment. For these reasons, having one senior
payroll technician handle all garnishments makes sense.
Recommendation H
The Comptroller's Office should consider
assigning all garnishments to one senior payroll technician.
EMPLOYEE INITIATED CHANGES
Employees initiate many payroll changes
by submitting the appropriate form to the Comptroller's Office. These changes
including health and life insurance updates, tax withholdings, and bond
allotments.
According to the Payroll Section, many
employees call to complain that these changes are not timely. Apparently,
they are unaware of the deadline for processing changes (by 5:30 pm of
the Wednesday before the pay period ends). Also, they are unaware that
they should ask their Administrative Contact to resolve payroll related
questions, rather than contacting the Payroll Section directly.
Recommendation I
The Comptroller's Office should remind
employees of the deadline for processing employee initiated payroll changes.
Recommendation J
The Comptroller's Office should remind
employees that they should ask their Administrative Contact to resolve
payroll questions.
Deductions for New Hires
The Comptroller's Office establishes
payroll deductions for new hires based on receipt of the appropriate form
from OAPM. If the form is lost or misplaced, no deduction is set up.
In one case, an employee enrolled in
health insurance and received benefits for several years, since OAPM notified
the health carrier. However, no payroll deductions were made for this employee,
because the Comptroller's Office never received the health insurance form.
The employee later detected the error and repaid the amount that should
have been withheld. If the employee had left the Commission before detecting
the error, the employee might never have paid the amount due.
This problem could be avoided if OAPM
used a check list for each new employee's deductions. The Comptroller's
Office could compare the check list to the attached forms, and identify
any missing forms.
Recommendation K
OAPM should develop a checklist or
other procedure to ensure that the Comptroller's Office is informed of
all deductions for new employees.
Recommendation L
The Comptroller's Office should remind
employees to review their earnings and leave statements for accuracy.
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us